No. 20-843
In the
Supreme Court of the United States

np
NEW YORK STATE RIFLE & PISTOL ASS’N, ET AL.,

Petitioners,
Vv.

KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF THE NEW YORK STATE POLICE, ET AL.,

Respondents.

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I declare that the Brief of Amicus
Curiae American Constitutional Rights Union in Support of Petitioners in case No.
20-843 contains 4,217 words, excluding parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on the 19th day of July 2021.

   

2 (
JOHN J. PARK, JR.
616-B GREEN STREET
GAINESVILLE, GA 30501
470-892-6444
